TA

@OCKLE

2311 Douglas Street Le ga ] Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 N
0.
ELIO GUTIERREZ,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.
AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of November, 2019, send
out from Omaha, NE 3 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
ROBIN LIPETZKY MAYA NORDBERG
Contra Costa County Deputy Public Defender
Public Defender *Counsel of Record
GILBERT RIVERA ANTHONY GEDEON
Deputy Public Defender Deputy Public Defender
CONTRA COSTA COUNTY
PUBLIC DEFENDER
800 Ferry Street
Martinez, CA 94553
(925) 335-8000

Maya.Nordberg@pd.cccounty.us

Subscribed and sworn to before me this 26th day of November, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

meena 5, 6 Colle Qudiaw-h, Chl

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 39024
SERVICE LIST

Bridget Ann Billeter

Office of the Attorney General

455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102-3664

(415) 703-5500
Bridget.Billeter@doj.ca.gov

Xavier Becerra

California Attorney General

455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102

(415) 510-4400
sfagdocketing@doj.ca.gov

Diana Becton

Contra Costa District Attorney

900 Ward Street

Martinez, CA 94553

(925) 957-2200
Appellate.pleadings@contracostada.org
